 Statement of Osvaldo Luis Gratacós                                                        June 25, 2014
 Inspector General



                                           Statement of
                                Honorable Osvaldo Luis Gratacós
                                        Inspector General
                              Export-Import Bank of the United States

                                             before the

                               United States House of Representatives
                                  Committee on Financial Services

                                      June 25, 2014 at 10:00 am


          Good morning, Chairman Hensarling, Ranking Member Waters, and

 distinguished members of this Committee.


          Thank you for the invitation and opportunity to testify before you about the

 activities of the Office of Inspector General (OIG) and the programs and operations of

 the Export-Import Bank (Ex-Im Bank) as it relates to Export-Import Bank oversight

 and its pending authorization. Before I continue, I would like to thank the Almighty for

 this opportunity, my family, and the members of the Ex-Im OIG staff for their hard

 work.


 I.       Ex-Im Bank


          The Ex-Im Bank is the official export credit agency (ECA) of the United States.

 Ex-Im Bank supports the financing of U.S. goods and services in international markets,

 turning export opportunities into actual sales that help U.S. companies of all sizes to

 create and maintain jobs in the United States. Ex-Im Bank has programs to address

 short, medium, and long-term needs of exporters; assuming the credit and country risks

Page 1 of 8                                                                  Office of Inspector General
                                                                      Export-Import Bank of the United States
    Statement of Osvaldo Luis Gratacós                                                                           June 25, 2014
    Inspector General


    that the private sector is unable or unwilling to accept. Ex-Im Bank also helps U.S.

    exporters remain competitive by countering the export financing provided by foreign

    governments on behalf of foreign companies. At the same time, Ex-Im Bank must

    safeguard taxpayer resources by determining that there is a reasonable likelihood of

    repayment with respect to each of its transactions.

            Ex-Im Bank is experiencing unprecedented growth - achieving three straight

    years of record authorization levels. Between FYs 2012-2013, Ex-Im Bank

    authorized over $60 billion in transactions. This is in addition to over $32 billion in

    FY 2011. Further, Ex-Im Bank’s portfolio has increased by 94% since 2008 ($58.4

    billion in FY 2008 vs. $113.8 billion in FY 2013). In the current Charter, Ex-Im Bank

    has authority to approve up to $140 billion in export transactions, subject to meeting

    certain credit-related performance criteria.

              Naturally, this rapid growth in Ex-Im Bank’s total portfolio exposure raises

    concerns as to Ex-Im’s ability to manage and monitor this significant portfolio growth.

    Below in section III, we highlight the OIG’s observations of some of the risks and

    challenges Ex-Im Bank faces and our recommendations for mitigating the issues we

    have identified.


    II.      Ex-Im OIG


             Ex-Im OIG was statutorily created in 20021 but the Inspector General did not

    officially take office until August 2007. The OIG has achieved notable success in

    performing its statutory duties. Specifically, since FY 2008, multiple audit, evaluation


1
    Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 22 (June 14, 2002).
Page 2 of 8                                                                                        Office of Inspector General
                                                                                            Export-Import Bank of the United States
 Statement of Osvaldo Luis Gratacós                                                          June 25, 2014
 Inspector General

 and special reports have been issued in the areas of risk management, domestic

 content, economic impact, IT systems, direct loan program, working capital delegated

 authority program, medium term program, sponsored travel, and performance metrics.

 In addition, the office has produced a number of inspection reports examining specific

 credit transactions approved by Ex-Im Bank. Further, our investigative efforts have

 resulted in a number of law enforcement actions against parties who have attempted to

 defraud the Bank, including 71 indictments and informations; 45 convictions; two

 extraditions; approximately 500 referrals of information to Bank management for

 enhanced due diligence actions; and over $277 million in court imposed restitution,

 forfeitures, repayments and cost savings efforts. All of this has been accomplished with

 a very modest annual budget that started at $1 million and is now approximately $5

 million.


 III.     Operational Areas – Risks, Observations and Challenges


              In order to manage its growing portfolio and to better meet export credit

 needs of the American exporters, it is our opinion that Ex-Im Bank and Congress can

 take steps to address some operational weaknesses and challenges facing the Bank.

 We believe that addressing these operational weaknesses and challenges would

 provide Ex-Im Bank with a more efficient and prudent capability to create and maintain

 jobs in the United States. Some of the most important risks, observations and

 challenges Ex-Im Bank and Congress should address are:




Page 3 of 8                                                                    Office of Inspector General
                                                                        Export-Import Bank of the United States
 Statement of Osvaldo Luis Gratacós                                                            June 25, 2014
 Inspector General

           Develop a More Comprehensive Risk Management Framework to Manage

               Portfolio Risk and Monitor Market Trends.

                           Last year, I testified before this Committee about the need for Ex-Im

               Bank to enhance its risk management framework. Back then, we stated that

               Ex-Im Bank should proactively manage the risk of its growing portfolio in line

               with common practices of commercial and multilateral development banks.

               Specifically, we recommended that Ex-Im Bank should:

               • establish a Risk Officer or create a risk management office with independent

                  reporting requirements to the Chairman;

               • assign qualified and experienced staff to that office;

               • conduct periodic stress testing on its entire portfolio reflecting different

                  market, industry, and macroeconomic scenarios; and

               • actively monitor industry, geographic and obligor exposure levels.

                           As of today, Ex-Im Bank has taken some steps towards improving its

                  risk management framework, however, opportunities for improvement still

                  exist. For example, Ex-Im Bank established and hired a Chief Risk Officer

                  (CRO) and restructured reporting lines to separate origination functions from

                  risk management functions. However, the position of Chief Risk Officer was

                  established as a non-career appointment and with additional management

                  responsibilities supervising the legal and administrative functions of the

                  Bank, which could dilute the focus of the position on credit risk issues. In

                  addition, Ex-Im Bank has initiated some stress testing of its portfolio utilizing

                  a top-down analysis of the portfolio as well as a bottom-up approach on

                  some obligors. The results of the first stress testing process were conveyed
Page 4 of 8                                                                      Office of Inspector General
                                                                          Export-Import Bank of the United States
 Statement of Osvaldo Luis Gratacós                                                            June 25, 2014
 Inspector General

                  to Congress in the Default Report dated September 30, 2013. The Bank has

                  also established an Enterprise Risk Committee and recently provided

                  documentation on its activities to the OIG. Finally, Ex-Im Bank commenced

                  the use of several qualitative factors in its re-estimate process to account for

                  the impact of such factors in the portfolio. The application of such factors in

                  the re-estimate process commenced in the fall of 2012 and resulted in an

                  upward revision of its loss reserves.


           Inefficient and Ineffective Information Technology (IT) Platform.

                           In 2012, we reported that Ex-Im Bank was using an ineffective,

               inefficient, and fragmented IT platform and infrastructure composed of several

               legacy systems and databases. These systems and databases do not

               effectively and accurately interface with each other – compromising data

               integrity, creating duplicative information, and creating unreliable files.

               Further, these systems make data mining and analysis burdensome and time

               consuming. Since 2012, Ex-Im Bank has engaged in an IT infrastructure

               modernization effort focused on replacing legacy systems and improving

               quality and access of its data. We understand that key systems are

               scheduled to be implemented in the next several months. The OIG will

               continue to monitor the implementation of the IT modernization system, and

               we recommend that the Ex-Im Bank and Congress continue monitoring this

               critical initiative, including provision of necessary funding.


           Human Capital Planning and Resources.

                           In past Semiannual Reports to Congress, we have identified human
Page 5 of 8                                                                      Office of Inspector General
                                                                          Export-Import Bank of the United States
    Statement of Osvaldo Luis Gratacós                                                           June 25, 2014
    Inspector General

                  capital planning and resources as one of the management challenges Ex-Im

                  Bank is facing. While Ex-Im Bank’s portfolio has increased by 117% since FY

                  2008, its staff has increased at a much slower rate. Ex-Im Bank’s portfolio

                  growth strains Ex-Im Bank’s resources in both the underwriting and asset

                  monitoring functions. Ex-Im Bank is currently in the process of increasing the

                  staffing levels for the above referenced functions. The OIG will closely monitor

                  these upcoming staff allocations.



              Monitoring of Local Cost Disbursements.

                              The Organization of Economic Co-operation & Development (OECD)

                  allows Export Credit Agencies (ECAs) to finance up to 30% of the “project-

                  related costs for goods and services incurred in the buyer's country” 2 related to

                  structured and/or project finance transactions. These local cost disbursements

                  may be disbursed in lump sums without any exports directly associated to

                  them. In two recent inspections conducted by the OIG, covering nearly $700

                  million in local cost disbursements, we noted that Ex-Im Bank relies on

                  certifications made by borrowers and contractors, but has limited ability to

                  verify whether the amounts disbursed to cover local costs are actually used for

                  the intended purpose and comply with Ex-Im Bank’s policies and procedures.

                  Given the countries where Ex-Im bank finances projects and the size of these

                  disbursements, we have recommended to Ex-Im Bank management that it

                  reserve rights of inspection in its credit agreements and allocate additional staff

                  to monitor and validate local costs.

2
 http://www.exim.gov/generalbankpolicies/index.cfm
Page 6 of 8                                                                        Office of Inspector General
                                                                            Export-Import Bank of the United States
 Statement of Osvaldo Luis Gratacós                                                             June 25, 2014
 Inspector General



           Continue Efforts to Expand Small Business Participation.

                           The Ex-Im Bank Charter dictates a small business participation goal

               of 20 percent of the total funding authorized each year. Ex-Im Bank provided

               record small business financing of around $6 billion in both FY 2011 and FY

               2012. In FY 2013, the amount decreased to $5.2 billion. In the last three

               fiscal years, this financing has not reached the Charter goal of 20%.


           Continue Efforts to Expand Renewable Energy Products and to Create Clean

               Energy Export Opportunities.

                           Congress has set a renewable energy mandate of ten percent of

               authorizations every year. Ex-Im Bank has not met this goal, mainly due to

               the fact that the total renewable energy export market is not yet large enough

               to achieve this level relative to the total size of Ex-Im Bank’s portfolio.

               Nonetheless, Ex-Im Bank continues to take a proactive approach in

               developing renewable energy specific products such as Solar Express, as

               well as reaching out to local companies such as wind and solar

               manufacturers.


           Improve Corporate Governance, Business Processes and Internal Control

               Policies and Practices.

                           One of the consistent observations arising out of audits, evaluations,

               and investigations conducted by the OIG are weaknesses in governance and

               internal controls as they relate to business operations. Internal policies

               providing clear guidance to staff and establishing clear roles and authorities

Page 7 of 8                                                                       Office of Inspector General
                                                                           Export-Import Bank of the United States
 Statement of Osvaldo Luis Gratacós                                                        June 25, 2014
 Inspector General

               have not been prevalent at Ex-Im Bank. The Bank has made some progress

               in this area by, for example, creating a more comprehensive Loan,

               Insurance, and Guarantee Manual. However, these efforts must be

               sustained to continue improving the corporate governance culture.


 IV.      Conclusion


          Ex-Im Bank has an important role in creating and maintaining jobs by facilitating

 export financing to American exporters. A 94% increase in export authorization levels

 since 2008 only supports that role. While Ex-Im Bank continues to provide export credit

 and financing as part of its export credit agency functions, it should work to improve its

 practice while it enhances its operational effectiveness and efficiencies.


        I have highlighted some of the challengers and weaknesses facing Ex-Im Bank

 for consideration in the reauthorization process. The OIG will continue to perform its

 independent oversight role as well as strengthen its efforts in preventing and detecting

 fraud, waste, and abuse.


          Chairman Hensarling, Ranking Member Waters, and members of the

 Committee, thank you once again for the opportunity to testify before you today. I

 would be pleased to respond to any questions you may have.




Page 8 of 8                                                                  Office of Inspector General
                                                                      Export-Import Bank of the United States
